No. 19-

IN THE

Ou,prente Court of the aluitebi ii§tateo
W&T OFFSHORE, INC.,
Petitioner,
v.
APACHE DEEPWATER, L.L.C.,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,441 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 12, 2019.

Cohn Casey Hoga
Wilson-Epes Printing Co., Inc.

